<html>
<title> - INTERNATIONAL PIRACY ON THE HIGH SEAS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                 INTERNATIONAL PIRACY ON THE HIGH SEAS

=======================================================================


                                (111-6)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
47-259                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)



        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Baumgartner, Rear Admiral William D., Judge Advocate General, 
  United States Coast Guard......................................     6
Branch, Rear Admiral Ted, United States Navy, Director of 
  Information, Plans, and Security, Office of the Chief of Naval 
  Operations.....................................................     6
Caponiti, James, Acting Administrator, Maritime Administration...     6
Chalk, Peter, Senior Political Analyst, Rand Corporation.........    24
Davies, Captain Phil M., Director, Oil Companies International 
  Marine Forum...................................................    24
Noakes, Giles, Chief Maritime Security Officer, Baltic 
  International Maritime Council.................................    24
Swift, Dr. Peter, Managing Director, Intertanko..................    24

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Hon. Elijah E., of Maryland............................    35
Linder, Hon. John, of Georgia....................................    50

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Baumgartner, Rear Admiral William D..............................    53
Branch, Rear Admiral Ted.........................................    61
Caponiti, James..................................................    66
Chalk, Peter.....................................................    78
Davies, Captain Phil M...........................................    86
Noakes, Giles....................................................   145
Swift, Dr. Peter.................................................   150

                        ADDITIONS TO THE RECORD

World Shipping Council, Christopher Koch, President and CEO, 
  written statement..............................................   156
[GRAPHIC] [TIFF OMITTED] 47259.001

[GRAPHIC] [TIFF OMITTED] 47259.002

[GRAPHIC] [TIFF OMITTED] 47259.003

[GRAPHIC] [TIFF OMITTED] 47259.004

[GRAPHIC] [TIFF OMITTED] 47259.005

[GRAPHIC] [TIFF OMITTED] 47259.006

[GRAPHIC] [TIFF OMITTED] 47259.007

[GRAPHIC] [TIFF OMITTED] 47259.008

[GRAPHIC] [TIFF OMITTED] 47259.009

[GRAPHIC] [TIFF OMITTED] 47259.010

[GRAPHIC] [TIFF OMITTED] 47259.011

[GRAPHIC] [TIFF OMITTED] 47259.012

[GRAPHIC] [TIFF OMITTED] 47259.013

[GRAPHIC] [TIFF OMITTED] 47259.014

[GRAPHIC] [TIFF OMITTED] 47259.015

[GRAPHIC] [TIFF OMITTED] 47259.016



            HEARING ON INTERNATIONAL PIRACY ON THE HIGH SEAS

                              ----------                              


                      Wednesday, February 4, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:01 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Elijah E. 
Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. This hearing will come to order.
    Before we begin, I ask unanimous consent that Mr. Pete 
Olson of Texas may sit with the Subcommittee today and 
participate in this hearing. Mr. Olson has already been 
assigned to the Committee on Transportation and Infrastructure 
and is to be assigned to the Subcommittee, but his Committee 
assignments have not yet been formalized. Therefore, without 
objection, it is so ordered.
    I also welcome the other new Members of our Subcommittee 
who have not gotten here yet, Mr. Kagen and Mr. McMahon on our 
side, and Mr. Ehlers and Mr. Platts on the Republican side. I 
am very pleased to have them.
    Ladies and gentlemen, it is my honor to have been appointed 
to a second term as Chairman of the Subcommittee on the Coast 
Guard and Maritime Transportation. I know before becoming 
Chairman of the Subcommittee the extraordinary work the Coast 
Guard performed in the Gulf Coast region in the aftermath of 
Hurricane Katrina. During my tenure I have come to see 
firsthand what an amazing service the Coast Guard is and how 
vital it is to the defense of our Nation and the safety of our 
maritime industry. I also have come to understand how integral 
maritime transportation is to the success of our economy.
    As I embark on this new term as Chairman, I remain 
committed to being the Coast Guard's biggest supporter, as well 
as its most constructive critic. I will continue to pursue 
every available opportunity to strengthen our Nation's Merchant 
Marines and to support the more effective integration of water 
into what should be an increasingly multimodal transportation 
network in our Nation.
    I welcome our new Ranking Member, Congressman Frank 
LoBiondo, who previously chaired this Subcommittee with 
distinction. I appreciate the expertise he brings to this 
position, and I look forward to working closely with him.
    I also welcome all of the new and returning Members of the 
Subcommittee. We have planned an aggressive and what I trust 
will be a productive schedule in the 111th Congress, and I look 
forward to working with each of you to ensure the success of 
our legislative and oversight efforts.
    Today we convene our first hearing in the 111th Congress to 
examine the causes of piracy at sea and its effects on global 
shipping. The term "pirate" may conjure in many people's minds 
romantic images of swashbuckling adventurers. However, in 
reality, a 21st century pirate is frequently a desperately poor 
individual from an unstable or failing state roaming the ocean 
in a small skiff waiting to attack vulnerable cargo ships with 
a rocket-propelled grenade launcher. There is nothing romantic 
about this figure or about the crime of piracy, which threatens 
the lives of mariners on innocent passages on the world's 
oceans and could have the effect of raising shipping rates at a 
time of a deepening economic recession.
    Our hearing is intended to provide a comprehensive 
examination of piracy, including its prevalence, its current 
and potential impact on shipping, and the nature and 
effectiveness of the international efforts being implemented to 
combat it.
    According to the International Maritime Bureau, there were 
293 reported pirate attacks against ocean-going vessels in 
2008. While pirate attacks occur sporadically in many parts of 
the world, piracy is most prevalent in the Horn of Africa 
region, with gangs from Somalia seizing vessels and holding 
their crews for ransom.
    The international community has mounted a multifaceted 
response to piracy in this region. The United States is taking 
an active role in this effort through its leadership of Task 
Force 151. However, given the size of the ocean area the 
international forces must control and their limited manpower, 
international navy powers are unlikely to be able to protect 
every ship passing the Horn of Africa from pirates.
    Further, as we will examine, while the first priority of 
the international forces active in the Horn of Africa's region 
is preventing or intervening in pirate attacks, the question of 
what to do with captured pirates is an important and 
complicated one, given the absence of the rule of law in 
Somalia and the complexity of international legal arrangements 
pertaining to crimes at sea.
    Efforts are currently under way to increase regional and 
international cooperation to support the effective arrest, 
detention and prosecution of pirates, And we look forward to 
receiving an update on the status of the current and planned 
agreements. That said, the piracy occurring at sea off the 
coast of Somalia is, frankly, just a symptom of what is a much 
greater problem, and that is the violence and instability that 
has persisted inside Somalia for more than some 20 years.
    Just last week, the Parliament of Somalia, which meets 
outside the country, elected a new President, reportedly 
another in a series of attempts undertaken by the transitional 
government in recent years to form a stable administrative 
structure. Frankly, this new administration's first challenge 
will be to assert control over the country it was elected to 
govern. When Islamist force is advancing, and where multiple 
tribal and warlord factions continue to battle for domain over 
various regions of the country, the lesson from the Straits of 
Malacca, where piracy was a significant threat in the early 
part of this decade, indicates that the key to controlling 
piracy in the Horn of Africa region will be asserting the rule 
of law at sea.
    In the case of Somalia, however, the assertion of rule of 
law at sea will likely require the establishment of some 
semblance of the rule of law on land. To date, fortunately, no 
U.S.-flag vessels or U.S. citizens have been attacked by 
pirates. However, whenever a critical ocean trading route is 
threatened by piracy, all ships passing through in that area 
are at risk, and the world's economy, which is critically 
dependent on the innocent passage of goods moved by water is 
affected.
    I look forward to the testimony of our witnesses from the 
United States Coast Guard, the United States Navy, the Maritime 
Administration and from a variety of maritime associations and 
interests. And with that, I again welcome our new Ranking 
Member and former Chairman of this Committee, Congressman 
LoBiondo, and recognize him for his opening statement.
    Mr. LoBiondo. Thank you very much, Mr. Chairman. I am very, 
very, very honored to be on the Committee and to be serving as 
the Ranking Republican in this 111th session of Congress. I 
thank you for your leadership in the last session. I look 
forward to working with you and Members of this Subcommittee 
and Full Committee on both sides of the aisle to address the 
needs of the Coast Guard and maritime community at large. I 
know that you share my intent to address these issues with 
swift enactment of a Coast Guard authorization bill this year.
    The Subcommittee is meeting this afternoon to review 
conditions that have led to an increase in piracy on the high 
seas and combined efforts by the United States and 
international community to respond to these attacks and to 
prevent future attacks. Piracy is recognized internationally as 
a crime against all nations and to which all nations--I 
repeat--all nations must respond. Piracy not only disrupts the 
safe and efficient movement of maritime commerce, it is a form 
of terrorism that cannot be tolerated in any region of the 
world.
    In recent years we have witnessed a dramatic increase in 
the number of attacks on merchant vessels transiting off the 
coast of Somalia. In part, this increase is due to the 
lawlessness that has resulted from the absence of a functioning 
government, Mr. Chairman, as you pointed out. Today armed gangs 
are operating with impunity, attracted to piracy by 
multimillion-dollar ransoms that continue to be paid out by 
vessel ownership groups. I am extremely concerned that the 
conditions that are supporting the growth of piracy may be 
exploited by other groups intent on carrying out terrorist 
attacks here at home and abroad.
    The United States has recently committed to place the Navy 
and Coast Guard assets in the region to protect vessels in the 
area and has invited other nations to join that effort. I 
applaud the services for taking action, but I am concerned 
about the specifics of how and to what extent U.S. assets and 
personnel will be used in the region. I am interested in 
learning more about the actions of our servicemen and women and 
what they will be undertaking to deter future attacks, the 
scenarios under which the U.S. personnel will be used to repel 
or apprehend suspected pirates, and the procedures by which 
suspects will be prosecuted. I would also like to learn more 
about the measures industry can take to best protect themselves 
from such attacks.
    I want to thank you, Mr. Chairman, again for calling this 
hearing, and I thank the witnesses for appearing today and look 
forward to the testimony in the Subcommittee.
    Mr. Cummings. Thank you very much.
    Mr. Baird.
    Mr. Baird. I thank the Chairman.
    Mr. Chairman, I regret I have another meeting to get to, 
but I wanted to just put into the record two brief comments. 
One, I had the privilege of being briefed in Bahrain very 
recently on the efforts being made there, and I think they are 
outstanding. But I had a troubling discussion with a young 
cadet at the Merchant Marine Academy just a couple of years ago 
who was on his annual--the year-long service at sea that the 
Merchant Marine cadets do. He shared with me having crewed on a 
ship in this region and had a very valuable cargo, and the 
defense on board the ship consisted of Gurkhas with knives. 
Now, the Gurkhas are fierce fighters, and knives are potent 
weapons, but not against an RPG. So I wonder if our witnesses 
could comment a little bit about the onboard defense 
capabilities of these ships, and especially if the ships are 
transporting U.S.-made goods, and even more importantly if they 
are transporting U.S. military supplies.
    The young man I was speaking to, if I remember the 
conversation correctly, implied that the boat was laden with 
U.S. military goods heading up to our military operations, and 
that was of particular concern. But even if it were not 
military, just valuable commercial supplies protected by 
Gurkhas with knives in a dangerous area is not sound policy. I 
would welcome comments. I will be unavailable to hear those, 
but if you could offer it in the record or later in your 
testimony, I would appreciate it. And I thank the gentlemen.
    Mr. Cummings. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. And not unlike the 
Ranking Member, I thank you for having called this hearing.
    I will be very brief with my opening statement. It is my 
belief, Mr. Chairman and Ranking Member, that these ruthless 
acts of piracy must be addressed and resolved because it poses 
a threat to maritime around the world. And as the Ranking 
Member indicated, piracy is indeed a form of terrorism. So I 
look forward to hearing the testimony today.
    Thank you again for calling the hearing.
    Mr. Cummings. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. And thank you for 
calling today's hearing.
    Piracy off of Somalia has recently emerged as a serious and 
growing threat to shipping. In 2008, as we heard, pirate 
attacks off the coast of Somalia and the Gulf of Aden have more 
than doubled. Although piracy has been a threat to seafaring 
nations for thousands of years, the emergence of aggressive and 
persistent attacks off the Horn of Africa is especially 
concerning.
    The gulf here is a critical shipping corridor. Between 16- 
and 20,000 ships transit it annually, including 12 percent of 
the world's petroleum shipments. The rise of piracy in the 
region puts mariners in danger and poses an economic burden to 
shipping companies. In fact, according to a Chatham House 
report, insurance premiums for ships traveling through the gulf 
have risen tenfold in 2008.
    Several factors have contributed to the frequency of pirate 
attacks. A larger number of high-value targets passing through 
the gulf, global proliferation of small arms trade, and most 
significantly, as we have heard, persistent civil violence and 
lawlessness in the country of Somalia.
    Any comprehensive international approach at combating 
piracy must address the current political situation in Somalia. 
The international community has recently stepped up efforts to 
combat piracy here. Combined Task Force 151 and Operation 
Atlanta have begun to patrol the area and provide protection to 
ships traveling through the gulf. The International Maritime 
Bureau's Piracy Reporting Center and MARAD have helped inform 
the maritime community about piracy and implement best 
practices for ships to evade and defend themselves from pirate 
attacks, and I look forward to hearing about those efforts.
    But when it comes to piracy in the 21st century, there is 
no X that marks the spot to point us in the right direction, 
but there are several ways the U.S. policymakers can undertake 
to help combat piracy: by encouraging the commercial maritime 
industry to adopt best practices; make greater use of defense 
technologies; help states in pirate-prone areas boost their 
coastal monitoring interdiction capabilities; and finally, 
provide resources to MARAD so they can continue to advise the 
industry on how to strengthen their own security.
    So, Mr. Chairman, I want to thank you again for holding 
this hearing. I look forward to discussing with our witnesses 
how the IMB and shipping companies can increase security and 
decrease opportunities for piracy, as well as the role that 
MARAD and the Coast Guard and our Navy are playing to help the 
maritime community navigate this serious issue.
    Mr. Cummings. Thank you very much, Mr. Larsen.
    Before we hear the testimony of our first panel, I just 
want to recognize former Congresswoman Beverly Byron for 
joining us today. I want to thank you, Congresswoman, for being 
with us. I want to thank you for your service and all of the 
things you have done with regard to transportation and the 
issues that we confront. And thank you very much for being 
here. And I thank you also for sharing the fact that we both 
are from Maryland.
    We will now hear from our panel. Rear Admiral William D. 
Baumgartner is the Judge Advocate General of the United States 
Coast Guard. Rear Admiral Ted Branch is the Director of 
Information, Plans and Security in the Office of the Chief of 
Naval Operations. And James Caponiti--am I close?
    Mr. Caponiti. Yes.
    Mr. Cummings. Caponiti is the Acting Administrator of the 
Maritime Administration.
    Rear Admiral William J. Baumgartner.

    TESTIMONY OF REAR ADMIRAL WILLIAM D. BAUMGARTNER, JUDGE 
 ADVOCATE GENERAL, UNITED STATES COAST GUARD; REAR ADMIRAL TED 
BRANCH, UNITED STATES NAVY, DIRECTOR OF INFORMATION, PLANS, AND 
 SECURITY, OFFICE OF THE CHIEF OF NAVAL OPERATIONS; AND JAMES 
    CAPONITI, ACTING ADMINISTRATOR, MARITIME ADMINISTRATION

    Admiral Baumgartner. Mr. Chairman, Representative LoBiondo 
and distinguished Members of this Subcommittee, good afternoon, 
and thank you for the opportunity to appear before you to 
discuss piracy and the Coast Guard's role in addressing this 
threat to freedom of navigation, the safety of international 
shipping and the lives of those seafarers who are so crucial to 
our international economy. I ask that my written statement be 
included in the record.
    Piracy is one of the oldest universal crimes. Under 
international law, every nation has a legal authority to bring 
pirates to justice. Such authority, however, does not guarantee 
success. Coordinated, international action is essential.
    The administration's recently released National Strategy 
for Countering Piracy off the Horn of Africa acknowledges that 
lasting solutions require significant improvements in the 
governance, rule of law, security and economic development of 
Somalia; however, there are steps that can be taken in the near 
term. The national strategy lays out these steps in three lines 
of action. The first entails preventative and precautionary 
measures to render piracy less attractive; most importantly, 
measures to make commercial vessels more difficult for pirates 
to attack.
    The second focuses on operations to interrupt and terminate 
piracy. Towards this end, U.S. Central Command has established 
combined Task Force 151 to deter, disrupt and suppress piracy 
in this region. Presently, Coast Guard Law Enforcement 
Detachment 405 is operating under this combined task force and 
is on board the USS San Antonio conducting boardings and 
training in the Gulf of Aden.
    The third focuses on effective prosecution of pirates. 
Specific measures include development of regional antipiracy 
agreements; promotion of existing international agreements such 
as the Convention for the Suppression of Unlawful Acts against 
the Safety of Maritime Navigation, or SUA Convention; and the 
enhancement of regional partner capabilities to prosecute 
pirates. These efforts are well under way.
    In January, the United States signed a Memorandum of 
Understanding with Kenya under which Kenya will accept custody 
of suspects and seize property for either trial in their 
country or transfer to another. This agreement builds on 
Kenya's past efforts, including the conviction of 10 pirates 
captured by the United States Navy in 2006 and the pending 
trial of 8 pirates captured by British Navy forces last fall. 
The SUA Convention, which I mentioned earlier, has been an 
invaluable tool in these efforts.
    Just last week at a meeting convened by the International 
Maritime Organization in Djibouti, 21 regional nations adopted 
an agreement for cooperation in the interdiction, investigation 
and prosecution of pirates, as well as the establishment of 
regional information and training centers. Although not 
eligible to become a party to this agreement, the U.S. 
delegation led by the Coast Guard played an important role 
supporting this effort.
    As the Nation's primary maritime safety and maritime law 
enforcement agency, as well as a branch of the Armed Forces, 
the Coast Guard has a significant role in responding to piracy. 
The Coast Guard leads U.S. antipiracy efforts at the 
International Maritime Organization. The Coast Guard 
establishes and enforces requirements for vessel security plans 
under the Maritime Transportation Security Act and the 
International Ship and Port Facility Security Code. These plans 
include antipiracy measures. As well, the Coast Guard engages 
in international training to enhance the capacity of other 
nations to take action against pirates both on their waters and 
in their courts. And currently we are engaged with several 
nations in the Horn of Africa region doing precisely this. 
Significantly, the Coast Guard has just published a revised 
Model Maritime Service Code that developing nations may use as 
a template to establish the laws and institutions necessary to 
counter piracy.
    As I conclude, I want to emphasize that piracy is a 
multifaceted threat. The response requires a broad array of 
legal authorities, operational capabilities, skills and 
competencies, as well as the participation of numerous U.S. 
Government agencies, international partners and commercial 
entities. The Coast Guard has a unique role to play and remains 
committed to this effort.
    Thank you for the opportunity to address the Committee, and 
I look forward to your questions.
    Mr. Cummings. Thank you very much.
    Rear Admiral Ted Branch.
    Admiral Branch. Good afternoon, Chairman Cummings and 
distinguished Members of the Subcommittee. I am happy to have 
the opportunity to appear today and discuss the U.S. Navy's 
counterpiracy efforts in the vicinity of Somalia.
    Somalia is a lawless and largely ungoverned country, with 
the shoreline stretching over 1,500 miles, equal to the 
distance from Miami to Maine. The primary industry and 
livelihood of coastal Somalia has always been fishing, and 
Somalis are capable mariners.
    During the last year, and especially last summer and fall, 
piracy incidents and subsequent ransom payoffs increased 
dramatically. The lack of governance, poor economic conditions, 
vast coastline and numerous vessels along the coast created a 
situation allowing pirates to mix with fishermen, evade 
coalition navies, and take merchant vessels hostage with little 
or no consequences.
    It is estimated that 25,000 ships per year transit the area 
in question. And the pirates enjoy complete freedom of movement 
both at sea and ashore. Merchant vessels were forced to comply 
with boardings by pirates brandishing automatic weapons and 
grenade launchers. Compliant vessels and crews were generally 
unharmed, and after days or weeks of negotiation, ship owners 
paid a ransom to have their ships released.
    For the past several years, countries in the region have 
largely been unwilling or unable to receive or prosecute 
captured pirates, so there was virtually no legal deterrent or 
risk to committing piracy. This inability to effectively 
investigate and prosecute suspected pirates was the single most 
significant impediment to stemming the rising tide of piracy. 
Now, due to the diligent efforts of the State Department and 
international community, there are enhanced Security Council 
resolutions on piracy and agreements in place for detention, 
investigation and prosecution of suspected pirates.
    Even though no United States ships or seamen have been 
pirated, the United States Navy has taken a leadership role in 
counterpiracy operations. In response to the increasing 
frequency of piracy obviously in 2008, U.S. Naval Forces 
Central Command, or NAVCENT, developed and is executing a 
counterpiracy plan. This has four main components: 
international naval presence, improved defensive measures from 
the shipping industry, international legal framework for 
resolving piracy cases, and removal of safe havens in Somalia.
    NAVCENT began by designating a maritime security patrol 
area in the Gulf of Aden where merchant vessels could transit 
with a higher probability of encountering naval vessels along 
the route. NAVCENT also engaged with the commercial shipping 
industry through the International Maritime Organization by 
working to help develop best practices for mariners in order to 
reduce the risk of being pirated.
    NAVCENT coordinated the support and participation of 
several navies who have contributed ships to the campaign. 
NATO, the European Union and other countries acting 
unilaterally have agreed to participate or are already on 
station conducting counterpiracy operations near Somalia. 
Countries with naval ships who have or are participating in 
counterpiracy operations include the United States, United 
Kingdom, Germany, France, Denmark, Greece, Italy, Turkey, 
Russia, Pakistan, India, Malaysia, China, and Saudi Arabia. The 
Republic of Korea and Japan have announced their intention of 
sending ships to the region to support this effort.
    In January, NAVCENT stood up Combined Task Force 151, 
focused on counterpiracy operations and commanded initially by 
a United States Navy Rear Admiral. Even with this high level of 
cooperation, the ocean area is vast, and both merchant ships 
and potential pirated vessels are numerous.
    Piracy is not a problem that can be solved with naval force 
alone. It is an international crime requiring an international 
solution. Efforts by the international community, industry and 
NAVCENT are bearing fruit. There are currently more than 20 
ships operating in the region, demonstrating international 
willingness to provide assets and expend resources to help 
solve this problem. Recent failed piracy attempts have been 
caused by merchant ships taking evasive action when being fired 
upon by pirates. In some cases, these defensive measures 
delayed the pirates enough for naval forces to appear and 
disrupt the attack. In other cases, the fact that merchant 
ships presented a hard target was enough to dissuade the 
pirates. In the last 2 months there have only been 5 successful 
piracies out of 34 attempts.
    With increased coalition naval presence, the merchant 
shipping industry taking actions to limit their chances of 
being pirated, and local countries such as Kenya agreeing to 
detain and try suspected pirates, we are making positive 
progress and lowering the level of piracy seen in August 
through November off the coast of Somalia. We are pleased by 
the positive progress in our counterpiracy efforts. As stated 
at the offset, however, piracy is a problem that starts ashore 
and requires an international solution. The ultimate solution 
is ashore in Somalia, assuring security and stability and 
eliminating the conditions that breed pirates.
    Mr. Chairman and Members of the Subcommittee, I want to 
thank you for inviting me to appear here today, and I will be 
happy to answer your questions.
    Mr. Cummings. Thank you very, very much.
    Mr. James Caponiti, please.
    Mr. Caponiti. Good afternoon. And thank you, Mr. Chairman 
and Members of the Subcommittee. It is a pleasure for me to be 
here today to discuss the serious threat stemming from piracy 
on the seas.
    The impact of piracy has been very significant. Acts of 
piracy threaten freedom of navigation and the flow of commerce 
on which all trading nations depend. The recent incidents in 
the Gulf of Aden have become very serious, as you outlined, 
sir.
    The Gulf of Aden links the Mediterranean Sea and the Suez 
Canal with the Indian Ocean and is one of the busiest choke 
points in the world. The area is operated--many vessels 
operating in the area are serving Europe, which also--and also 
East Africa, South Asia and the Far East; yet there are U.S. 
flagships that serve the area. About one ship a day is in the 
region, and many of the ships that are in the region may be 
carrying government assistance cargo.
    The vessels that are vulnerable are those with--that are 
slow-speed vessels or low freeboard, which is the distance from 
the water to the deck, and ships such as container ships or 
roll-on/roll-off vessels are less vulnerable than tankers or 
dry bulk ships.
    Throughout 2008, the global piracy situation grew 
substantially worse, and, as you said, particularly in the gulf 
region area. Currently 10 commercial ships are being held for 
ransom with about 200 crew members at risk. Just last week a 
German-owned tanker under Bahamas' flag, the Longchamp, was 
captured, and that was the third vessel in the month of 
January.
    Of course, ship owners and operators are negatively 
impacted by the threat of piracy with higher costs--higher 
costs in their own right, higher insurance premiums and the 
threats to crews. The disruption to commerce, of course, is 
something that threatens all trading nations.
    The U.S. has been a leader in the international action to 
combat the current piracy crisis, and the United States 
welcomes the U.N. Intervention. The most recent U.N. Security 
Council resolution in December 1851 raised the stakes on 
necessary means that forces may take to counter piracy. And the 
U.N. also created--in January meetings created a Contact Group 
on Piracy off the Coast of Somalia for international 
cooperation. One of those contact groups is being led by the 
United States group, and it is the group that addresses 
coordination of the commercial industry with best practices to 
protect themselves.
    MARAD is perhaps unique among government agencies with 
regard to its interest in piracy issues. We are a civilian, 
nonregulatory agency with a robust sealift mission which 
leverages the assets and human resources of commercial 
companies. We are very involved with our own vessels in the 
Ready Reserve Force and the OIF and OEF sealift. We are very 
involved in maritime education and training with our Federal 
academy and assistant State academies, and we have assisted the 
IMO in training regimes for security regimes on vessels and in 
companies.
    We also have cargo preference oversight, and we monitor the 
flow of U.S. DOD cargo and aid cargo as it transports on the 
oceans of the world. We have been involved in past operations 
in the Falklands and then the Red Sea and Libya in providing 
information to divert U.S. flagshipping from threats that exist 
at sea.
    We accompanied the State Department in meetings in late 
December and January in the U.N. and have been asked to take 
the lead on some issues in collaboration with the industry. We 
are very involved with that. We were involved, leading up to 
the end of your crises, with many forms in which we invited the 
U.S.-flag community and the international community to discuss 
means to combat piracy and to cooperate with naval forces. We 
continue to meet with the industry to finalize BMPs and share 
industry concerns with government agencies.
    We have intensified our efforts in the fight against piracy 
and will continue to do so throughout 2009 to further improve 
coordination between the industry and the various navies 
participating in the Gulf of Aden. Combating international 
piracy is no small effort, evidenced by its long history. Much 
work has already been done, but much remains to be done before 
international piracy can be eliminated. MARAD has the unique 
and vital role in the development of U.S. antipiracy policy, 
and we believe we provide a valuable service to the commercial 
industry.
    Mr. Chairman, the Department of Transportation and the 
Maritime Administration stand ready to assist in any way 
possible to address this piracy issue and any other issues that 
threaten the national and economic security of the United 
States and our allies. I want to thank you, Mr. Chairman and 
the Members of the Subcommittee, for your leadership in holding 
this hearing today, and I will be happy to answer any 
questions. Thank you.
    Mr. Cummings. I want to thank you all for your testimony. I 
just have a few questions, and then we will go to Mr. LoBiondo.
    Admiral Baumgartner, the Coast Guard has deployed the Law 
Enforcement Detachment, LEDET, 405 on board the U.S. San 
Antonio, I think you talked about that, which is a flagship of 
Task Force 151. LEDET is serving as a boarding force and 
providing training to Navy personnel on law enforcement 
matters.
    Can you comment on the work that LEDET has performed to 
date? For example, how many boardings has it conducted? 
Further, I understand that the Coast Guard cutter BOUTWELL has 
been deployed to CENTCOM for 3 to 4 months. Will BOUTWELL be 
deployed to undertake antipirate missions as part of Task Force 
151?
    Admiral Baumgartner. Thank you, Mr. Chairman. First, with 
the crux of your questions on the exact number of boardings 
that LEDET 405 has conducted, I don't have that particular 
information. LEDET is working underneath CTF 151. I will be 
happy to get that information and provide it for the record.
    [Provided subsequent to the hearing: As of February 4, 
2009, LEDET 405 has conducted six boardings while assigned to 
CTF 151. These boardings were conducted working with Navy's 
Visit Board Search and Seize (VBSS) teams.]
    I do know that they are conducting extensive training 
there. They have specific law enforcement expertise. They are 
used to acting in this mode with naval--U.S. naval platforms, 
as well as the naval platforms of other services.
    The BOUTWELL is, as you mentioned, on its way over to that 
theater. It will be working for Central Command. I would 
anticipate that Central Command may assign it at some point in 
time to CTF 151, and that it might engage in counterpiracy 
operations. However, once we turn the asset over to Central 
Command, they will decide at any particular point in time what 
is the most appropriate mission for the BOUTWELL to conduct. As 
I said, I suspect they will be heavily engaged in this once 
they get in theater.
    Mr. Cummings. As you know, Rear Admiral, one of the things 
that I have always been concerned about was the--and this 
Committee has expressed concern about with regard to the Coast 
Guard, particularly after 9/11--is how we have been--the Coast 
Guard has been stretched to take on all kinds of missions and 
what have you. And we understand what is happening here, but do 
you see that as having significant impact on your operations 
here in the United States and with regard to bringing safety 
and guarding our coasts and what have you?
    Admiral Baumgartner. Sir, the BOUTWELL's deployment is 
something that we factor into our regular operations plan and 
scheduling. We do have commitments, as one of our Nation's 
armed services, to deploy and interact and have 
interoperability with the Navy and the rest of the Department 
of Defense. So it will not impact our normal scheduled 
operations. It is vital for us to continue these types of 
deployments to ensure that we bring our unique capabilities, 
authorities and perspective to operations such as those in 
Central Command.
    With regards to your specific question about the impact 
upon our marine safety mission, there will be no visible impact 
there. The BOUTWELL does engage in submarine safety operations, 
but is primarily engaged in law enforcement operations, search 
and rescue and those type of things. So I would not see any 
negative impact on our Marine safety mission.
    As far as the law enforcement detachment is concerned, we 
have had a law enforcement detachment over working for CENTCOM 
really since we entered that theater back in 2003. And that is, 
again, a planned deployment, and that is something that we 
factored into our operations.
    Mr. Cummings. The question that I think comes up when 
people hear about these pirate acts--and I hear this when 
people find out in my district that I chair the Coast Guard 
Subcommittee, that this is the question they ask. So, wait a 
minute, let me make sure I understand this. This is what they 
say: So you mean you have got a ship that is carrying millions 
upon millions and millions of dollars' worth of goods such as 
oil, and some little boat can come up with some folks with some 
guns and take over that ship? And the question becomes, does 
the Coast Guard recommend that vessels carry armed guards; and 
if not, why not; and if so, why so?
    Admiral Baumgartner. Yes, sir. With respect to carriage of 
armed guards, the U.S. Government does recognize that that is 
an option available to a ship owner. We do recognize that that 
option has to be thought out very carefully in advance, 
particularly--once you bring armed guards and weapons on board 
a vessel, you have to make absolutely sure that they are fully 
qualified to use those weapons, trained, certified as 
appropriate, and so forth. You also need a very well-thought-
out, well-coordinated and rehearsed practice method of using 
those weapons. This is not something for crewmen or part-time 
security guards or novices to engage in.
    Now, the other thing that is essential there is to ensure 
that all the other parties that are involved with that ship 
transit are aware and are coordinated with what is happening. 
For example, there are cargo interests. Some cargos may be 
dangerous, may be hazardous. Obviously with liquified natural 
gas, oil and so forth, there are significant problems and 
dangers, and it may be totally inappropriate to have weapons on 
board.
    You also have to look at the flag state that is involved. 
Frankly, most shipping is not carried on U.S.-flag vessels. I 
think everybody is aware of that in this room. So you have to 
look at what the flag state law is, and there are significant 
concerns there. And armed security guards and crew that use 
weapons have to be fully aware and be coordinated with that 
flag state.
    One other interest that is pretty significant here are 
insurance interests, and they will have to be heavily involved 
in reviewing any decision that is made.
    So to summarize, it is an option that is available, it is a 
complex one to use, and needs to be well thought out in 
advance.
    Mr. Cummings. If a merchant vessel comes under attack by 
pirates in international waters, what are the rules of 
engagement for the crew members on that vessel?
    Admiral Baumgartner. Well, sir, some things may vary from 
nation to nation. The flag state law will govern what that crew 
is able to do. For the most part, though, that crew will be 
able to engage in self-defense and defense of others. So if 
they are threatened, and a pirate attack usually threatens 
imminent bodily injury or death, under the laws of most 
nations, they are entitled to take appropriate proportional 
acts in self-defense.
    Mr. Cummings. Just one last question. Admiral Branch, an 
Islamist faction called al-Shabab is apparently working to 
exert some type of control over Somalia. What do we know about 
this group and its objectives? Is al-Shabab aligned with al 
Qaeda, and if so, how closely? Further, I understand that al-
Shabab has been designated by the State Department as a 
terrorist organization. Therefore, I ask what is your 
assessment of the nature of the risks that terrorist entities 
may begin to use piracy in some way to advance their agendas?
    Admiral Branch. Thank you, sir.
    My understanding is that al-Shabab is an offshoot of the 
Council of the Islamic Courts from previous times in Somalia, 
and they are a terrorist organization, according to the United 
States Government. Their affiliation with al Qaeda is not a 
direct affiliation, but an affiliation of common goals and 
purposes as far as we can tell.
    Interestingly, al-Shabab is opposed to piracy, demonstrably 
opposed to piracy. And, in fact, when they and their fellows 
were in charge, piracy decreased markedly in the areas where 
they were in control.
    The United States Government and Navy and naval 
intelligence has looked for a nexus between piracy and 
terrorism, and so far we have not found that nexus. In some 
respects, it would be an easier problem to tackle if we could 
establish that definitively, but we have not been able to.
    Mr. Cummings. Why do you say that?
    Admiral Branch. Why do I say what?
    Mr. Cummings. What you just said. You said----
    Admiral Branch. It would be a different problem to handle?
    Mr. Cummings. You said it would be an easier problem to 
handle.
    Admiral Branch. I probably should have said a different 
problem to handle, because we have very clear--I mean, we have 
been engaged in the war on terror now for some number of years, 
and we are pursuing that stridently wherever we find it. We 
haven't found that nexus to terrorists. These are criminals in 
the eyes of the United States Government as opposed to 
terrorists, so we have to treat them as criminals with the 
authorities that are ensued there.
    Mr. Cummings. What does the ability of a relatively 
unsophisticated individual in very small boats to quickly 
commandeer large ocean-going vessels say about our ability to 
prevent terror threats from small boats at sea? I mean, what 
does that say?
    Admiral Branch. Well, sir, I guess I would respond to that 
by saying that piracy doesn't generally happen when grey ships 
are there, whether they are U.S. Navy grey ships or others. The 
problem we have is covering the area sufficiently to keep the 
criminal act of piracy in progress from becoming a hostage 
situation. Once the pirates are aboard and have taken over the 
ship, now it is a hostage situation and not--again, the things 
that we can do--our limitations are different. We have to have 
permission.
    For example, if we were to try to do some kind of hostage 
takedown, that is a whole other ballgame than preventing an act 
of piracy in progress, because you have the nation, the flag 
state, the owning entity, the hostages themselves, the crew 
member, the masters involved, the cargo owner is involved, and 
you risk certain--you certainly increase the risk to the crew 
members in that kind of takedown. Therefore, there hasn't been 
any appetite to do those kinds of hostage takedowns once the 
ships were captured.
    Mr. Cummings. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    If you would, Admiral, help me walk through--there is a 
ship, a tanker, whatever the ship may be, and it is off the 
coast, and they realize that there is some action starting 
against them. That would typically be a small boat coming at 
them. How do they communicate with the ship they are trying to 
take over?
    Admiral Branch. What we have seen in the past--it varies. 
Merchant shipping has an alert watch which we endorse, an alert 
watching capability that has a lookout that can see these ships 
on the horizon and sees these small boats out there coming in a 
threatening manner, should be alerted. That watch organization 
should alert those ships. The ships that have an active 
defensive capability or plan will begin to speed up, will begin 
taking evasive action. Many of these ships that have 
successfully evaded have passive defensive measures which can 
be as simple as raising the accommodation ladders and the means 
to get on the ship, or having fire hoses energized and going 
over the side to help knock down anyone trying to gain access 
to the ship. There has even been some cases of barbed wire, 
razor wire on access points if the pirates try to climb up. 
That would inhibit their activities.
    So the ships, if they see the pirates coming, they can take 
these evasive actions if they choose to. There have been very 
few cases where ships that took evasive action and did not 
comply with the pirates that have been actually pirated. In 
most cases, those ships, the pirates decide it is too hard, and 
they go somewhere else. And it was already mentioned in 
testimony, I think over here, that the ships with the high 
freeboard distance from the water to the rail and they can go 
faster than about 18 knots or so are not impervious, but have a 
very low chance of being pirated just because it is a tough 
task to hook a boarding ladder up against the side of the ship 
and climb up onto the ship from these small boats.
    So the ships that have evasive plans, defensive measures in 
place do present a very hard target. And that does two things 
for us. It might just dissuade the pirates, or it might give us 
time if we have a ship in the neighborhood to get the ship or a 
helicopter in the area to have the pirates cease their attack.
    Mr. LoBiondo. So it is up to each individual ship owner as 
to what policy they have?
    Admiral Branch. For a large part, yes, sir. There are 
procedures in place in the military Sealift Command and for 
government charters that have standardized approaches. The 
training was mentioned, the training programs that--MARAD 
professors are very good. We certainly endorse those training 
proposals to enable the shipping industry to help in their own 
defense.
    Mr. LoBiondo. So let us say a ship is at watch, and they 
see something coming up. I mean, typically what does that give 
them, a half hour, an hour notice or warning?
    Admiral Branch. We have about 15 minutes to react and to 
interdict the piracy.
    Mr. LoBiondo. So 15 minutes now. Is there a standardized 
procedure or attempt to standardize procedure where the ship 
would contact who to let them know that they believe they are 
under attack?
    Admiral Branch. Yes, sir. The coordination centers. The 
ships can call the coordination centers. There is one in 
Bahrain. There is one also in Djibouti. Sometimes they call all 
the way back to London. But they have phones on ships now. They 
can call, make those phone calls back to the coordination 
centers and IMO centers.
    Mr. LoBiondo. So the coordination center makes a 
determination of who is closest to----
    Admiral Branch. No, sir. It is not a commanding drill. That 
is just spreading the word that there is a ship in danger.
    Mr. LoBiondo. How does help get----
    Admiral Branch. They also will go out typically on 
registered British radio. It is a VHF radio, relatively short 
range. So people that hear that call may well be in a position 
where they can try to react, especially if there is an aircraft 
airborne already to try to venture into that area.
    Mr. LoBiondo. Is that military people you are talking 
about?
    Admiral Branch. I am talking about military people.
    Mr. LoBiondo. So whatever military people might be in the 
area that hear that SOS?
    Admiral Branch. Yes, sir. And CTF 151 has coordinated where 
these assets that are under their direction should best be 
positioned to try to spread out the coverage, if you will, with 
the ships that are there on national tasking or the ships that 
are there under other authorities, to try to get as much of the 
coverage of the grey holes that we can out in that area. And it 
is all about response time in preventing the piracy from 
happening. Once the pirates are on board the ship, there is not 
a lot we can do then because now we have a hostage situation.
    Mr. LoBiondo. Just one last question. Let us say that the 
SOS goes out, and somebody is in close proximity, some military 
asset is in close proximity. What do they then have the 
authority to do to the pirates?
    Admiral Branch. They have the authority to thwart the 
pirates' attack.
    Mr. LoBiondo. What does that mean?
    Admiral Branch. That means to stop it.
    Mr. LoBiondo. By force?
    Admiral Branch. Yes, sir. By force.
    Mr. LoBiondo. Okay. Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Larsen.
    Mr. Larsen. I am going to start off with some questions for 
Admiral Branch. How many countries are involved with CJTF 151?
    Admiral Branch. Right now the only countries that have 
ships involved are the United States and the United Kingdom.
    Mr. Larsen. And how many ships is that?
    Admiral Branch. Five.
    Mr. Larsen. And we have four?
    Admiral Larsen. Yes, sir.
    Mr. Larsen. We have four of those, and the U.K. has one. 
But there are any number of other countries with ships as well?
    Admiral Branch. Yes, sir.
    Mr. Larsen. We are coordinating with those other countries, 
but we are not coordinating the actions of those other 
countries; is that right?
    Admiral Branch. We are coordinating with those other 
countries, but we are not--the countries that are there on 
national tasking, we are not commanding those ships. It is a 
coordination effort, but not a command relationship.
    Mr. Larsen. There is a separate NATO task force or a 
separate EU task force replacing the NATO task force?
    Admiral Branch. Yes, sir. There is an EU task force on the 
scene conducting counterpiracy operations, and they are being 
commanded by a British one-star out of Northwood. There also 
have been some NATO ships in the area, not presently engaged, 
and then various ships on national tasking. The Chinese are 
there. The Russians are there. And there are other ships that 
are out there on their own national order.
    Mr. Larsen. For the Chinese, this is their first major 
overseas deployment since 1421, I think. Have we been 
coordinating with them? And how do we communicate and 
coordinate with them?
    Admiral Branch. We have been communicating with them as 
navies do, as a matter of deconfliction and safety of 
navigation and whatnot. And we have been coordinating--
coordinating is probably too strong a word. We have been 
communicating with them on e-mail actually to help ease the 
language barrier, and that communication typically consists of 
where they are, and what they are observing, and where they 
intend to move and patrol that day. And we will adjust 
accordingly to take advantage of that presence.
    Mr. Larsen. I am not going to leave the other two out, but 
just a few more. At what point for the U.S. Navy would we move 
from a deterrence to a kinetic action for the Navy, in this 
circumstance, in a piracy circumstance?
    Admiral Branch. With the standup of CTF--Combined Task 
Force 151, the orders are flowing that will initiate the second 
phase of that operation. The first phase is really just the 
standup of the organization and getting the position, getting 
ready to run.
    The second phase will be a situation where we go out more 
actively and look for suspected pirates and apprehend them. The 
long pole or the impediment to that has been up until now lack 
of any reasonable disposition means. But now that we have an 
agreement with Kenya, we have something that we can do with 
these apprehended pirate suspects. We will be able to go out 
and arrest them for being pirates and take them in, gather the 
evidence, and take them to----
    Mr. Larsen. So we have a place to put them, and presumably 
the Kenyan justice system would then prosecute?
    Admiral Branch. Right.
    Mr. Larsen. Presumably.
    One more question about the Navy. I will try to be quick 
about this. This is the how much and how long--the thought of 
putting U.S. Navy destroyers against Somalian fishing boats for 
a certain amount of time seems reasonable, but for a longer 
period of time seems to be a stretch of U.S. naval assets given 
the other needs in the world. Another way of putting this--I 
look forward to the next panel, because I would like to know 
how long they are going to depend on the U.S. Cavalry to 
protect them when they have things they can do to protect 
themselves, and we have many other things that we need to be 
doing with our own limited naval assets. Do you have a 
direction on how much and how long for the U.S. Navy under 151?
    Admiral Branch. No, sir. It is an open-ended construct 
right now. There is a lot to do in the Central Command area of 
operations, as you mentioned, but the United States Navy also 
recognizes it has a piece to play in the solution of this 
problem.
    Mr. Larsen. Absolutely. I agree that you do. And I know 
that the shipping companies do as well.
    Mr. Caponiti, just quickly. In conversations with shipping 
operators, they have spoken actually very highly of the work 
that MARAD has done to help the industry implement best 
management practices, especially the antipiracy assessment 
teams. Can you give us an idea of this initiative's progress?
    Mr. Caponiti. Yes, sir. Thank you.
    The initiative is an MSC, military seal of command, 
initiative. They are working with the Naval Investigative 
Services and also the Justice Department training centers. We 
are also assisting them in boarding vessels. This is strictly 
voluntary. We have started with U.S.-flag vessels at first. We 
think this might extend to the foreign-flag community. There is 
a test going on this week at Norfolk with a Ready Reserve Force 
vessel, one of the MARAD vessels, and we will then----
    Mr. Larsen. Tomorrow, then?
    Mr. Caponiti. Yes. And we will be testing with an APL 
vessel after that.
    Mr. Larsen. Do you expect an after-action report at some 
point?
    Mr. Caponiti. Yeah. This has been viewed--there are a 
number of carriers who indicated that they want to participate 
in this. They would like to voluntarily participate, and we 
will obviously see how this goes and have more to report on it.
    Mr. Larsen. Great. Thank you. I look forward to hearing 
back about the progress on that.
    Thank you, Mr. Chairman.
    Mr. Cummings. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you all with us, gentleman.
    Admiral Baumgartner, piracy is both a safety and security 
issue in the maritime domain, and the Coast Guard, in my 
opinion, seems to be the appropriate agency to lead the 
counterpiracy efforts. Is it your belief that the Coast Guard 
has the ability to serve in that capacity?
    Admiral Baumgartner. Well, sir, as you mentioned, we are 
uniquely positioned as a maritime safety agency, as well as a 
maritime law enforcement agency, and as an armed force, so we 
do have a unique position to play there and a unique role, and 
we are able to bring different perspectives and different 
capacities to bear.
    We also have a long history of working with the 
International Maritime Organization on piracy issues, including 
circulars on antipiracy measures, and the International Ship 
and Port Facility Code, and the antipiracy measures that are 
contained in each ship's security plan.
    As far as the Coast Guard leading the efforts, part of this 
is a matter of capacity and where our ships and assets are at. 
As far as the Horn of Africa is concerned, we obviously don't 
have the ships to put over there, so that makes it very 
difficult. We are not in a position to take an operational lead 
in this particular fight. We are involved as--in cases as 
pirates are apprehended. If they are apprehended by U.S. naval 
forces, we are part of something called the motor or maritime 
operational threat response process. That is a process where 
all U.S. agencies that have expertise or authority in an area 
collaborate to figure out how best to work together to address 
a particular case. So we might be involved in consulting, or 
providing investigators, or helping preserve evidence, or 
things along those lines.
    Mr. Coble. And, Admiral Branch, I didn't intend to cut the 
Navy adrift with my question to that end.
    Admiral Baumgartner, let me follow up with this. What can 
the shipping industry and/or the maritime industry do to combat 
piracy? In other words, are there any voluntary activities that 
the industry can take to reduce the probability of acts of 
piracy?
    Admiral Baumgartner. Yes. There are several. And, in fact, 
I think, as has been mentioned already, the industry is doing 
quite a bit to work on best management practices. And, in fact, 
I just yesterday got something that the Oil Companies 
International Maritime Forum produced, and they will be on your 
second panel, and I am sure they would love to talk about it. 
But I think they just put out 27,000 of these booklets on 
effective antipiracy measures. Some of them have already been 
mentioned here, and preparedness is one of the most important 
ones.
    All of the vessels that are transiting that area are 
supposed to have or do have vessel security plans. They have 
annexes in those plans on how to deal with piracy and other 
similar threats. Practicing those plans and reviewing those 
plans and ensuring you are ready when you transit that area is 
probably the most important thing.
    Speed has already been mentioned here; appropriate erratic 
maneuvers to make sure that the people from the small pirate 
skiff can't climb easily aboard your vessel. Admiral Branch 
talked about some of those as well, fire hoses, other things 
that make it difficult to draw out the length of the attack so 
that perhaps a warship or a helicopter or something can get 
there. Those are all very important measures and steps that 
industry can take. And I think one of the things is not to 
stop. The vessels that continue to keep up speed, continue to 
maneuver and buy time for help wear the pirates down, and that 
is one of the most effective measures that can be taken.
    Mr. Coble. Let me get to Admiral Branch and Mr. Caponiti. 
Is there a solution to the problem, or do you have suggestions 
that are ongoing now that would work toward reducing these 
ruthless acts?
    Admiral Branch. Sir, as you say, the long-term solution is 
to make the conditions such as in Somalia or wherever the 
pirates come from, that they are not inclined to go into that 
business. We have to make it unprofitable for them and 
uncomfortable for them to do this. And we can make it 
uncomfortable in a number of ways, by arresting them when they 
are out there in their skiffs with rocket-propelled grenades 
and guns and ladders and sending them to jail. We can make it 
uncomfortable for them by defeating their attacks, or we can 
make it uncomfortable for them by being just too damn 
frustrating to get aboard the fourth or fifth ship they try 
when that ship is exercising active and passive defensive 
measures.
    Mr. Coble. Get their attention, in other words?
    Admiral Branch. Yes, sir. Unless we can make it 
unprofitable and uncomfortable, I think we will be in this 
business in Somalia for a while.
    Mr. Coble. I thank you, sir.
    Yes, sir.
    Mr. Caponiti. Sir, may I add, we believe the best 
management practices that have been adopted by the industry on 
a large scale have made a difference. There are a number of 
them out there. We are consolidating those to provide to 
nations that are willing to listen.
    One other thing. One thing that we could do as a 
government, that we could do in Congress, is to encourage our 
Senate colleagues to adopt the Law of the Sea Convention. There 
are some provisions in there that would help us to enforce the 
laws of the sea and to bring them--to bring the bad guys to 
prosecution. So that is one thing that this Nation could do to 
assist the situation.
    Mr. Coble. Thank you, gentlemen.
    I yield back, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. And welcome back. 
It is good to be back on the Committee.
    My first question is for Rear Admiral Branch. Recently in 
the news there has been great talk about both Russia and China 
taking part in anti-piracy activity around the Horn of Africa. 
How active has their participation been in the anti-piracy 
activity?
    Admiral Branch. Both the Russians and the Chinese have 
established a presence in the Gulf of Aden primarily, and they 
are actively engaged in helping deter piracy in the vicinity of 
their forces. The Chinese primarily are concerned with Chinese 
flag and Hong Kong flag vessels as they go through. The 
Russians, I am not sure if the Russians are focusing there or 
if it is--I could get back to you on the record to say who they 
have been most closely coordinating with. But in any case, the 
presence of those great hulls is a deterrent to piracy where 
they are, and if they are in one particular area, we can put 
the other assets that we coordinate in control and others to 
spread out the wealth of the naval assets and make the problem 
harder for the pirates.
    Ms. Richardson. Are you working in coordination with them?
    Admiral Branch. We are communicating with them. Again, 
"coordination" is probably too strong a word for both of those 
entities. But as mariners do at sea, we communicate generally 
for safety navigation and to determine intentions. And in this 
case we have done that kind of communications to establish 
their areas of operations and their focus, and then we can--for 
the forces we do command or coordinate, we can spread those out 
to cover more area.
    Ms. Richardson. Would you choose to coordinate more or is 
the communication sufficient at this time?
    Admiral Branch. We will communicate and leverage the 
channels of communication we have to the best advantage as we 
can.
    Ms. Richardson. And, Admiral, you mentioned that we are not 
the operating lead at the Horn of Africa. Is there anything 
that we should do to change that or is it sufficient as it 
exists?
    Admiral Baumgartner. My comments were meaning that the 
Coast Guard itself as an agency can't be leading the efforts 
there simply because we don't have the platforms there. Now, 
with Combined Task Force 151, as Admiral Branch has talked 
about, we do have very much a leading role on the water in that 
area, and as that task force ramps up I suspect that role will 
only increase.
    Ms. Richardson. Thank you very much.
    Mr. Cummings. Thank you very much.
    Mr. McMahon, and welcome to the Committee.
    Mr. McMahon. Thank you, Mr. Chairman. Chairman Cummings, it 
is indeed privilege and an honor to be here, and I look forward 
to working with you, sir. As a new Member, I am excited to join 
this Subcommittee, and I thank you and these witnesses for 
focusing on this important issue of international policy.
    I know that much ground has been covered, and you mentioned 
this a little bit, but I also serve on the Foreign Affairs 
Committee, and just what we can do in Congress and what we can 
do with that Committee in terms of the international mechanisms 
to deal with this problem, whether it is the United Nations or 
the different treaties that you mentioned that we as a NATION 
can pursue on that front to deal with this very important 
problem.
    I leave it to you to choose.
    Admiral Baumgartner. I will say a few words on that 
account. We have been, as the Coast Guard, as a law enforcement 
agency and working with these types of counterparts in other 
countries been involved in this for quite some time. In terms 
of what the Congress can do here, as Mr. Caponiti said, one 
important thing is encourage your counterparts in the Senate to 
act on the Law of the Sea Convention. That will help us 
immensely as we go about negotiating additional agreements and 
working in additional international forums. The Law of the Sea 
Convention is really the constitution of the oceans in terms of 
international law. It always makes our job more difficult when 
we go to negotiate anything, it makes it more difficult because 
we are not a party to that particular convention. It is a 
always an obstacle, something we have to address. That is 
probably the number one thing.
    The other international mechanisms, they are out there. 
Piracy is a universal crime well-explained in international 
law. The SUA Convention provides good mechanisms for 
cooperation, for prosecution or extradition of pirates and 
similar criminals. We have been engaged in lots of efforts to 
get other nations used to the idea of using these tools and 
used to the idea of trusting in these authorities.
    As we have seen with Kenya, Kenya has made good steps 
forward. Last week there was a regional agreement in Djibouti 
where 21 nations agreed to use these tools to investigate, 
interdict, and prosecute piracy. So many of these things are 
moving forward already.
    From a parochial point of view, the Coast Guard, as the 
Chairman knows, we would benefit greatly from an authorization 
in the act that would allow us to proceed with our 
modernization efforts. One of the key things in our 
modernization efforts is establishing a Coast Guard operations 
command so that we would have a very strong, operationally 
focused--worldwide operationally focused command that can 
ensure that we are making the most of all of our capabilities 
and capacities addressing these kinds of threats.
    Mr. McMahon. Thank you, Rear Admiral. And I look forward to 
working with all of you, but in particular with you because, as 
you know, I have in my district the Coast Guard base in Staten 
Island which has the command for New York City and is vital for 
our city and for our Nation.
    How long has the Law of the Sea Convention been before the 
Senate waiting for ratification?
    Admiral Baumgartner. Well, I believe it was forwarded in 
1995. That was right after the 1994 agreement that solved many 
of the flaws with the original convention.
    Mr. McMahon. Is there anything that you think would have it 
move at this point, or is it eternally stuck there?
    Admiral Baumgartner. I have great optimism that it will 
move. Even in the last Congress, it was voted out of the Senate 
Foreign Relations Committee overwhelmingly in favor of 
ratification, a good bipartisan vote there. It simply didn't 
make it to a floor vote. I already have faith that this Senate 
and this Congress will move forward on the Law of the Sea 
Convention. We hope that we can see hearings scheduled and we 
can see a floor vote.
    I know that Secretary of State Clinton did mention this in 
her confirmation hearings, the importance of this. So the more 
messengers we have on this, the faster it will happen and the 
more effective, and all of us here, MARAD, the Navy, the Coast 
Guard, the State Department, can be in our international 
efforts to combat piracy and other threats.
    Mr. McMahon. Thank you, sir.
    Mr. Chairman, I yield the remainder of my time. Thank you, 
sir.
    Mr. Cummings. Thank you very much.
    Just one last question of the three of you.
    Statistics from the International Maritime Bureau indicate 
that there were 293 actual and attempted pirate attacks against 
vessels worldwide in 2008, a decline from the 445 actual and 
attempted pirate attacks recorded by IMB in 2003.
    What likely accounts for the overall decline in piracy 
worldwide in the last 5 years, and are attacks actually 
decreasing or are fewer attempted attacks being reported or are 
both happening?
    Mr. Caponiti. The incidents of piracy--Malacca was the hot 
spot a number of years ago, and that situation was diminished, 
mitigated by really the action that happened on the land. The 
two governments, Malaysia and Indonesia, took very strong 
action within their territories to stamp out the pirate cells. 
That is what cured that and that is really what we need.
    We do think that since when the tempo heightened during the 
summer this year and the international community began to get 
together and talk about this, there was an increase in naval 
forces, true. But the international community, the commercial 
industry began to get together in forums to talk about this. 
There was a lot of discussion about how they could harden the 
target and the way they harden the target is through best 
practices, basic maneuvers the Admiral spoke about. Before you 
go into a region that has a threat of piracy, the crew needs to 
be prepared. They need to know what they are going to do before 
they get there if there is an attack and what each member of 
the crew is going to do. We think those initiatives are paying 
off.
    You are going to have a panel here in a few minutes that I 
think could probably give you a little more detail on that, but 
we think that the community uniting the way it has to combat 
this has really had an impact. Right now we have some bad 
weather out there with the seasons, which may be one of the 
reason why things have mitigated. We will know better as the 
calendar goes along whether the actions that we have taken 
really will have a permanent effect. We suspect we have 
improved things.
    The other thing, though, the pirates themselves are 
adjusting their procedures as we adjust ours. So this 
initiative needs to remain interactive. It remains dynamic. We 
need to keep our eye on this and react as they react.
    Mr. Cummings. Anyone else?
    Admiral Baumgartner. Yes, sir. I would add here that there 
is an interesting timing coincidence, and I don't think it is 
any coincidence at all. You mentioned the statistics for 2003. 
In 2004 is when the International Ship and Port Security 
Facilities Code went into effect. Here domestically we call it 
MTSA, Maritime Transportation Security Act. That introduced 
significant vessel security plan requirements, facility and 
port security requirements.
    One of the important impacts of that is, as Jim Caponiti 
said, it hardened vessels as targets for pirates. Now they had 
to have organized and approved security plans. At the same time 
this made it more difficult to bring stolen cargo or stolen 
ships into ports because there were real port facility plans 
and requirements in place. I think that is no coincidence at 
all. And as Mr. Caponiti said, the regional cooperation in the 
Straits of Malacca was key in ensuring there wasn't a landside 
safe haven for pirates to take ships while they went about 
their business, held their hostages and so forth. And certainly 
in Somalia, as we all know, that is the key. There is a 
friendly supporting coastline there that supports these 
operations, and that is what is the real enabler for piracy off 
the Horn of Africa.
    Mr. Cummings. All right.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral Baumgartner, the MOU with Kenya, is it just a U.S. 
MOU with Kenya?
    Admiral Baumgartner. Yes, sir, it is a bilateral MOU with 
Kenya. But the U.K. has a similar MOU and the Djibouti 
agreement, the Djibouti Code of Conduct, has many of the very 
same provisions in it. That is a volunteer agreement. But that 
will spread much of this throughout the region.
    Mr. Larsen. So if the French navy captures pirates, they 
can use Kenya, or would they?
    Admiral Baumgartner. What they would do is under the 
Djibouti Code of Conduct they would approach--they could 
approach one of the regional countries and say under the terms 
of the Djibouti Code of Conduct we would like you to take 
custody of the prisoners and the evidence and prosecute the 
case.
    I would also note that the International Maritime 
Organization has had a template for these procedures and 
agreements out for a while as well.
    Mr. Larsen. All right. That gives me the best answer maybe 
you can give me but not as solid an answer as I would like to 
hear.
    Admiral Baumgartner. Yes, sir. France right now I would----
    Mr. Larsen. And I don't mean to pick on the French. Any 
other country but the United States that has an MOU with Kenya. 
Picking the other countries, I want to be clear I am not 
pointing out any one country.
    Admiral Baumgartner. The U.K. does have an MOU with Kenya. 
I am not aware of any other country that has a direct bilateral 
MOU with Kenya at this point in time. They may have them, but I 
am not aware of any.
    Mr. Larsen. What is your expectation for Kenya once we 
deliver people and evidence to the Kenyan justice system?
    Admiral Baumgartner. My expectation is that Kenya will 
accept those and they will put them right in their criminal 
justice system. We already have one positive experience with 
them. Ten pirates that we brought to them in the fall of 2006, 
they tried them in their courts, convicted them, and they are 
serving a 7-year prison term right now. And as we speak there 
are eight pirates, if I have got the numbers right--I believe 
it is eight pirates that the U.K. captured this fall that are 
awaiting trial in Kenyan courts. I think it was scheduled 
earlier this month, and I don't know if that trial has actually 
started yet or not. I would expect that Kenya would continue 
along in that vein and step up to the plate as they have.
    Mr. Larsen. Do we have any negative experience, any 
experience of turning people over and then no prosecutions 
taking place or inadequate prosecutions taking place?
    Admiral Baumgartner. I am not aware of that with Kenya.
    Mr. Larsen. Any other countries you are aware of that with?
    Admiral Baumgartner. I don't think the United States has 
had any experience turning over prisoners other than those to 
Kenya. It has been a problem in the past where naval forces 
have captured prisoners and they haven't found a regional 
country willing to take them, and there are significant legal 
and logistical challenges. If your home country or the flag 
state of the warship is 7,000 miles away, it may make it 
extremely challenging to get those prisoners from the Horn of 
Africa to your country in a timely manner to satisfy your own 
judicial system. So there have been cases where navies just 
have not been able to do anything with the pirates because they 
can't get another country to accept that particular group.
    Mr. Larsen. And what happens to that pirate?
    Admiral Baumgartner. I think that in various times they 
have been turned loose or they have been turned over to other 
quasi-authorities in that area, authorities that we might not 
recognize as the United States Government. The end result of 
the pirates we really don't know, but I would suspect that----
    Mr. Larsen. They might go back to pirating or they might 
not make it back to pirating?
    Admiral Baumgartner. Yes, sir. I do not expect that they 
faced justice in any kind of a system that we would recognize.
    Mr. Larsen. Sure. All right.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you. I want to thank the panel for your 
excellent testimony. We will probably have some follow-up 
questions in writing. But thank you very much.
    I want to now call our next panel.
    Mr. Peter Chalk is a Senior Political Analyst with the RAND 
Corporation. Captain Phil M. Davies is Director of the Oil 
Companies International Marine Forum. Mr. Peter Swift is 
Managing Director of Intertanko. And Mr. Giles Noakes is Chief 
Maritime Security Officer of the Baltic International Maritime 
Council.
    Mr. Chalk, you will be first.

   TESTIMONY OF PETER CHALK, SENIOR POLITICAL ANALYST, RAND 
 CORPORATION; CAPTAIN PHIL M. DAVIES, DIRECTOR, OIL COMPANIES 
INTERNATIONAL MARINE FORUM; DR. PETER SWIFT, MANAGING DIRECTOR, 
INTERTANKO; AND GILES NOAKES, CHIEF MARITIME SECURITY OFFICER, 
             BALTIC INTERNATIONAL MARITIME COUNCIL

    Mr. Chalk. Thank you, Mr. Chairman and distinguished 
Members of the Subcommittee, for the opportunity to testify 
before you today.
    At the outset I would like to stress one main point. Piracy 
is above all an economically driven phenomenon. This is true 
both with respect to those who engage in the practice where the 
objective is to make profits and those against whom attacks are 
frequently directed where the desire to keep operating costs as 
low as possible has at times precluded or outweighed 
imperatives for instituting more onboard security.
    A total of 1,845 actual and attempted attacks of piracy 
were recorded around the world's waters between 2003 and 2008. 
That figure probably underrepresents the true scale of piracy 
because in many cases, possibly as many as 50 percent, attacks 
are not reported. Sometimes shipowners do not like to report 
attacks for fear that this will increase maritime insurance 
premiums as well as result in lengthy and costly post-attack 
investigations.
    As we have heard, the concentration of piracy is greatest 
around the Horn of Africa but other high-risk areas include 
Indonesia, Bangladesh, India, Tanzania, and Gulf of Guinea off 
West Africa.
    Seven main factors would seem to account for the emergence 
of piracy today in the scale we are seeing. First has been the 
growing trend toward the use of skeleton crews, both as a cost-
cutting device and as a reflection of more advanced maritime 
navigation. This has both precluded the option for concerted 
anti-piracy watches as well as made the general task of gaining 
control of ships that much easier.
    Second, the general difficulties associated with personal 
surveillance have been compounded by demands that are being 
made on many littoral states to enact very expensive 
territorially based systems of homeland security in the post-9/
11 era.
    Third, lax coastal and portside security have directly 
contributed to opportunistic attacks against ships at anchor.
    Fourth, corruption and easily compromised systems of 
judicial structures have encouraged official complicity in 
piracy both with respect to providing intelligence on ship 
locations as well as helping with the rapid discharge of 
pirated cargos.
    Fifth, the endemic anarchic situation in Somalia has 
directly contributed to the rash of attacks we have seen off 
Horn of Africa.
    Sixth, the ready willingness of shipowners to pay 
increasingly large sums for the return of their cargos and 
vessels has provided an added financial incentive to engage in 
maritime crime.
    And, finally, the global proliferation of small and light 
weapons has provided pirates with an enhanced means to act in a 
more lethal and destructive basis than was previously the case.
    The dangers associated with piracy are fairly multifaceted. 
At the most basic level, attacks constitute a direct threat to 
the lives of citizens of a variety of flag states. Piracy also 
has a direct economic cost in terms of lost trade, stolen 
cargos, and fraudulent trade. It is conservatively estimated 
that it costs between $1 and $16 billion a year to the maritime 
industry at present.
    Politically piracy can also play a key role in undermining 
government legitimacy by encouraging corruption. And, finally, 
piracy has the potential to trigger a major environmental 
catastrophe. The nightmare scenario would be a mid-sea 
collision between a pirated vessel that is left to drift and a 
heavily laden oil tanker.
    As we have heard, the rapid escalation of piracy at the 
Horn of Africa has prompted unprecedented international action 
on the part of the global community. The United States has 
enacted Combined Task Force 151 to monitor predefined maritime 
corridors in the Gulf of Aden. That supplements a year-long EU 
naval force that was deployed last year. Several other 
countries have sent their own navies to the region, and the 
U.N. Security Council has now sanctioned the use of force 
against pirate dens on land by passing Security Council 
Resolution 1851 in December of last year.
    Although these initiatives have met with some success, 
their overall utility does raise some questions. First, the 
area to be monitored is enormous, over 1 million square miles. 
There is also the issue of national interests. It is not 
apparent how the EU naval flotilla will be funded or whether or 
not the potentially thorny issue of cost-sharing is even being 
broached.
    In addition, questions of legal jurisdiction have yet to be 
fully settled and appropriate rules of engagement have still to 
be fully fleshed out. Employing force against pirate dens on 
land carries the obvious danger of large-scale civilian 
collateral damage and associated accusations that the West is 
once again intent on destroying Muslim lives.
    Finally, the deployment of naval frigates will only be able 
to address the piracy problem at its end rather than at its 
root on land.
    I would like to conclude with five areas I think the 
Committee should consider as worthy candidates for directed 
further research:
    One, what are the costs of piracy and how do these compare 
to the expenses required for mitigation?
    Two, what is the best way of dealing with piracy in areas 
of endemic lawlessness and anarchy where there is no government 
with which to engage?
    Three, is the current international legal framework for 
countering piracy sufficient, or does it need to be changed in 
some fashion?
    Fourth, what is the extent of government responsibility in 
countering piracy and what role should the private sector play 
in helping to manage the problem?
    And, finally, what are the chief land-based factors that 
contribute to modern-day piracy, and how can these best be 
addressed?
    Again, I thank you for the opportunity to be here today, 
and I look forward to answering any questions that you might 
have.
    Mr. Cummings. Thank you.
    Mr. Davies.
    Captain Davies. Mr. Chairman, Committee Members, thank you 
for your invitation today to address the Committee.
    Piracy on the high seas is one of the most critical and 
concerning issues facing the maritime community today. OCIMF 
firmly believes that the establishment of law and order on the 
high seas is an issue for international governments. However, 
we also recognize that maritime security and in particular 
piracy remains a concern to us all. OCIMF appreciates the 
importance of this Committee meeting, particularly in light of 
the current situation in the Gulf of Aden, and looks for 
further ways industry can work with governments to reduce the 
threat of piracy.
    OCIMF itself is a voluntary association, having as its 
members over 70 of the world's leading oil companies. Our 
members engage in activities of mutual concern relating to 
transportation of oil and gas by tanker with special reference 
to the protection of the marine environment and the promotion 
of safety in marine operations. In relation to piracy, OCIMF's 
priority is the safety and well-being of our mariners while 
adhering to the principle of free movement of trade in 
international waters.
    We have submitted written testimony, including a copy of 
the booklet "Piracy - the East Africa/Somalia Situation," 
published in conjunction with the IMB, Intertanko, Intercargo 
and SIGTTO.
    My written testimony today covers six key areas related to 
current operations in the Gulf of Aden, and this afternoon I 
would like to focus on a few of these.
    Industry has been engaged in efforts to combat piracy for 
some time now and gives full support to the various efforts of 
the United Nations bodies, particularly the International 
Maritime Organization. In this regard we fully support the U.N. 
Resolutions leading to U.N. Security Council Resolution 1851 in 
December, 2008. We welcome the establishment of EUNAVFOR, 
Combined Task Force 151, and the contributions of NATO. We also 
welcome the contributions of other navies in the area and look 
upon this as an opportunity for development of new friendships 
and cooperation.
    In this regard we need to ensure that lines of 
communication are kept simple. There is currently a significant 
amount of confusion in regard to overall operational control. 
Vessels require a single point of contact for assistance, 
particularly when under attack. OCIMF supports the continued 
utilization of NAVFORUK, which is both an operational 
headquarters for EU Naval Force in addition to a key NATO 
facility. We also recognize the forward assistance provided by 
the U.K. Maritime Trade Organization in Dubai and the United 
States Maritime Liaison Office in Bahrain. OCIMF does not 
support the establishment of further regional coordination 
centers, as it is likely to do little to assist in mitigating 
piracy on the high seas.
    The shipping industry is engaged on many levels with the 
fight on piracy, and this includes a provision of senior 
merchant navy officers into the EU Naval Force Headquarters in 
Northwood to assist with liaison development of best practices 
in relation to operations in the Gulf of Aden. We are also 
active, through the International Maritime Organization, with 
the Maritime Safety Committee correspondence group reviewing 
IMO measures and recommendations to industry.
    OCIMF welcomes a contact group established under U.N. 
Security Council Resolution 1851 and recognizes the leadership 
of the United States in this important approach to resolving 
the piracy issue. We look forward to working in partnership 
with government and industry to further develop best practices 
for deployment against the piracy threat.
    The shipping industry estimates that approximately 30 
percent of vessels transiting in the Gulf of Aden are still not 
adequately prepared. It is hoped that our booklet, which I 
mentioned earlier, may assist in educating these vessels and 
mariners in basic precautions.
    OCIMF fully supports training of mariners in nonlethal 
means of avoiding, deterring, and delaying pirates boarding 
vessels. However, this training must be completed under 
existing international legislation such as the International 
Ship and Port Security, ISPS, Code; and the Standards on 
Training and Certification of Watchkeepers, the STCW 
Convention.
    We do not support the use of armed guards or other private 
forces in protecting vessels. Oil tankers and LNG ships in 
particular do not provide a platform conducive for armed guards 
or gunfire. However, the same safety factors and concerns apply 
to all vessels. The use of armed guards are likely to lead to 
significant increased risk of personal injury, fire, and 
explosion, risk of escalation of conflict, particularly as 
pirates will assume all vessels are armed and attack tempo will 
increase accordingly. We also note the use of armed guards is 
not supported by any of the key international organizations.
    OCIMF recognizes that in order to remove pirates from the 
seas it is important to develop the necessary legal framework 
such that authorities may prosecute pirates when captured. A 
practical way forward is to establish treaties to allow 
prosecution within littoral states to the conflict. Probably 
the most suitable place of prosecuting Somalia pirates are 
Kenya and Yemen, which are both close to the areas where piracy 
occurs. OCIMF supports this approach and the agreements already 
entered into as it allows the littoral states who do not have 
naval assets to support the anti-piracy efforts through 
successful prosecution of pirates.
    Equally an important role for industry is to ensure that 
evidence is clearly recorded and witnesses as requested are 
available to the courts.
    Mr. Chairman, I thank you and the Committee for the 
opportunity to speak before you today and would be pleased to 
answer any further questions.
    Mr. Cummings. Mr. Swift.
    Mr. Swift. Congressman Cummings, distinguished Members, 
thank you very much for the invitation to speak to you this 
afternoon on this very important issue. Intertanko's members 
represent about 80 percent of the world's independent fleet of 
oil and chemical tankers.
    Piracy on the high seas, as you have already heard, is a 
major issue for the United States, for governments, for the 
maritime industry, and eventually for the consumer. Piracy in 
the strategically important chokepoint in the Gulf of Aden and 
off the Somali coast is of particular concern for oil shipments 
and my members. The hijacking last November of the Saudi 
Arabian Sirius Star carrying more than 2 million barrels of 
crude oil to the United States highlighted the reasons for our 
concern and our alarm. We are therefore grateful that nations, 
and especially the United States, have started to take 
appropriate responses to that action.
    While governments and many others have legitimate concerns 
about these events, I want to assure you all that the prime 
concern of our members, and I suspect all other shipowners, is 
the safety and welfare of our seafarers, and the concern for 
the security of our ships and security of their cargo come 
second. But there are other consequences of these attacks which 
are of major concern. These include, for example, the 
additional costs for insurance and for crews transiting that 
area or the extra costs associated with the longer voyages for 
ships that opt to re-route around the Cape of Good Hope, costs 
that are eventually borne by the consumer.
    So what is being done and what else is needed? My members 
firmly believe that the establishment of law and order on the 
high seas is an issue for governments and not one that industry 
can solve. That said, we recognize though that the shipping 
industry does have a big part to play in this matter and there 
is therefore a shared responsibility between industry and 
governments.
    On the industry side we are fully committed to the 
development and the implementation of the best practices that 
have been referred to. To this end we also cooperate with the 
International Maritime Organization in reviewing and updating 
guidance to owners and to ships. We distribute security 
bulletins regularly to our members. We work with our industry 
colleagues to provide both generic and specific advice for 
transits, and we maintain regular contact with the military 
advisers and reporting centers.
    We have also seconded some of our staff to the EU Naval 
Force Headquarters to enhance two-way communications between 
military and commercial operations and to help ensure that 
information is routinely and promptly updated. One particular 
challenge does remain, and that is that we want to ensure that 
all shipping transiting in this region is made fully aware of 
those best practices.
    We are therefore now focused on methods to promote 
awareness, appraising other owners and operators of relevant 
facts, the risks involved, and the measures that ships can take 
to avoid, deter, or delay pirated attacks. We are focusing 
especially on those ships outside the large net of well-
informed and responsible ship operators who are already well-
appraised and well aware. This is because while there continue 
to be soft targets or relatively soft targets, the potential 
rewards for pirates remain high, and therefore all shipping is 
potentially vulnerable and remains at risk.
    While industry is doing its best, my members believe that 
governments must take the appropriate action to eliminate 
pirates in the region. In this regard I believe there are five 
main governmental functions that are necessary.
    The first is to provide and then maintain sufficient 
military assets, both naval and aviation, in the area. Until 
recently, these were woefully inadequate, but fortunately with 
the establishment of CT 151 and the combined European Naval 
Forces, the situation has improved.
    The second need is to ensure coordination between those 
military assets and to ensure that we make the most effective 
use of the resources available. From the ship operator's 
standpoint, it is important that there be clarity in the 
reporting and communication mechanisms with these forces.
    Thirdly, there is a need to ensure single or at least 
compatible rules of engagement for those military forces. Each 
navy has its own national laws of engagement when confronting 
pirates. Ideally they should engage on the same lines; 
preferably upon arrival at the scene.
    Fourthly, there is a need, as you have heard, to develop 
the necessary legal authorities to prosecute pirates when 
captured, and the examples given, such as in Kenya, are 
particularly welcomed.
    Fifthly, there is, of course, the need to develop a long-
term solution to the Somali problem, but I think we all 
naturally understand that this will take time.
    Finally, Mr. Chairman, I would like to reiterate the total 
commitment of my members to take the best practical steps to 
avoid these attacks and to cooperate fully with governments 
operating in the region.
    We thank you for the opportunity to address the 
Subcommittee.
    Mr. Cummings. Thank you very much.
    Mr. Noakes.
    Mr. Noakes. Good afternoon, Chairman Cummings, Ranking 
Member LoBiondo, and Members of the Subcommittee. Thank you for 
inviting BIMCO, the largest of the shipowners associations, to 
testify in front of your Committee.
    Last year 14 of the 42 vessels hijacked off the coast of 
Somalia were BIMCO members.
    Piracy is a global but not a new phenomenon, but has only 
really come to the attention of the international community in 
the last 6 months or so. My aim now is to summarize briefly my 
written statement on what the industry and particularly BIMCO 
is doing about piracy and outline those areas of international 
piracy that remain of gravest concern to BIMCO. I would like to 
focus on three important competing security resources.
    Firstly, global security and competing security resources. 
In short, BIMCO is concerned that governments and the world's 
navies have overlooked the fact that globalization is 
fundamentally a bad trade, the physical movement of heavy goods 
and commodities by sea. Recent statements, seminars, and in the 
press, however, have made it clear that the defense of trade 
appears archaic and dated.
    The Malacca problem, however, took international efforts 
and regional efforts to resolve it to guarantee freedom of the 
seas to the global supply chain being challenged by local 
pirates. This supply chain is once again being held to ransom 
in the Gulf of Aden/Horn of Africa area, a commercial strategic 
chokepoint. The cost of navies in order to mitigate the threat 
has to be balanced with the implications of the inability to 
maintain normal trade and the nations' vital interests. Indeed, 
this has been seriously exacerbated only last week by the 
declaration of two large container lines that they will now go 
around the Cape.
    The implications for the Suez Canal and regional economic 
stability and the rest of the global economy are significant.
    The attack on the capture and of the LPG carrier MV 
Longchamp, discussed earlier, in the Gulf of Aden last Thursday 
before dawn for the first time confirms that pirates are 
resourceful and cunning. By deploying decoys, they led 
coalition warships away from natural targets and succeeded in 
boarding what is recognized as the most vulnerable type of 
vessel, a slow-moving and low freeboard bulker. BIMCO 
understands that it is impossible to fund sufficient warships 
for navies to run escorted convoys, but it is clear there are 
still not enough assets to make the current "area protection 
system," so named, to work. It is clearly having an effect and 
has continued communication and enhanced information sharing 
also, but whilst attacks such as the Longchamp can take place 
then more assets will still be needed.
    The situation is forcing many in the industry to avoid the 
area as it is economically more viable and safer for crews to 
say nothing of the security of the hulls themselves. Indeed, 
the industry has forecast a severe shortage of officers and 
crews over the next decade, and the safety of crews has become 
a major industry driver both for recruitment and retention.
    Secondly, judicial weaknesses. Arrest and trial of pirates, 
as we have heard, is proving difficult as even those nations 
providing naval forces have not addressed their national law on 
piracy and the necessary legal statutes to arrest and try 
pirates. Nations who are committing resources and warships to 
counter piracy seemingly fail to see that putting pirates back 
ashore is making a laughingstock of them and failing to deter 
the pirates from continuing their lucrative trade.
    UNCLOS does not explicitly require states to enact 
legislation, but it does obligate states to cooperate to the 
fullest extent possible in the repression of piracy on the high 
seas. Notwithstanding this obligation under UNCLOS to cooperate 
to the fullest extent, the vast majority have not implemented 
the requirements of SUA1988 signed by 149 nations. For example, 
because of this the Danish warship which should be out at sea 
deterring pirates is alongside in Bahrain today with five 
pirates arrested in the act still onboard. It is waiting for 
its government and the Dutch Government to make up their minds 
how to hand over the pirates to the Dutch legally for trial. 
The Dutch have said they would try them, but 1 month later this 
situation has not been resolved.
    BIMCO is aware that the U.S. Coast Guard is a strong 
advocate of implementing the SUA1988 proposal swiftly, and 
BIMCO will support all efforts to see a speedy implementation, 
including cognizance within the U.N. Contact Group Working 
Group tasked to address jurisdictional issues and by inviting 
its members to engage with their national governments.
    Thirdly and finally, perceptions and understanding. The 
industry, with the International Maritime Organization, has 
been at great pains to defend itself against piracy for some 
considerable time, as evidenced in the number of actions as 
listed in my statement. Over the last 6 months or so, however, 
the industry has been continually invited to prove its own 
defenses against piracy. You have heard it is working hard to 
do so and mainly by the military. These range from best 
preparations to using armed guards. The last it resolutely 
opposes because of the risks, implications, and dangerous 
precedents involved in accepting such measures.
    The industry also understands the complications of 
coordinating and controlling the vessels from four different 
groups, from currently 14 nations with 20 ships soon to be 15 
nations and 22 ships. The industry perception, however, is that 
whilst this is clearly working and having an effect, it remains 
a concern as to whether the capacity of these forces is being 
maximized to best effect and indeed whether there are still 
enough ships.
    BIMCO would also suggest that there is a greater need to 
understand the role of IMO as the preeminent maritime body and 
the vehicles already exist to examine methods of deterring and 
defeating piracy. The ISPS codes, for example, do not 
specifically address piracy in name, but by utilizing the ISPS 
ship security assessment requirements to address the piracy 
threat, much can be achieved. The work of the piracy contact 
group that has fallen out of UNSCR 1851 will need to be 
coordinated through the IMO where work is already in hand to 
revise Maritime Safety Committee Circulars.
    In summary, it is accepted that it is naive to defeat 
piracy totally. But the volume of successful attacks remains 
unacceptable, and there is a requirement for a paradigm change 
in how navies and governments view the industry. There is a 
requirement for this paradigm change in order to, firstly, 
appreciate the importance of shipping and the maintenance of 
the global economic system and recognize its vulnerabilities; 
secondly, make piracy less attractive by arresting and trying 
captured pirates; and finally, to reduce the numbers taken and 
held to gain the initiative to break the back of the problem.
    Chairman Cummings, Ranking Member LoBiondo, Members of the 
Subcommittee, thank you again for the opportunity to testify 
today. BIMCO is committed to working tirelessly with our 
industry partners and all stakeholders involved in protecting 
seafarers and ships from international piracy. I am happy to 
take any questions you may have.
    Mr. Cummings. Thank you very much. I want to thank all of 
you for your testimony. We have got our last votes for today 
coming up. So what we are going to do is sort of abbreviate our 
questions and what have you and try to resolve this hearing 
before we go to vote. We have three votes.
    You all have been so kind to stick around as long as you 
have, and we have Members who have to get out of town also.
    We are very pleased to have our Chairman of the entire 
Transportation Committee, Mr. Oberstar, with us, and I am glad 
to recognize him at this time.
    Mr. Oberstar. Thank you, Mr. Chairman. I want to 
congratulate you for your initiative in focusing Committee 
attention on this issue of piracy and Mr. LoBiondo for 
participating. Welcome back to the Coast Guard Subcommittee, 
Mr. LoBiondo. You have performed exceptional service in years 
past, and we are glad to have you back in this position.
    Mr. LoBiondo. It is an honor to be here. Thank you, sir.
    Mr. Oberstar. And Chairman Cummings has done extraordinary 
service in his first 2 years of our majority in the last 
Congress and is continuing in this Congress.
    We have to make it clear to the international community 
that piracy is a matter of great concern to all seafaring 
nations and that it will not be tolerated, will not be taken 
lightly, and that mariners should not be in fear of their lives 
or their livelihoods as they transit this or any other region. 
Piracy, whether it was in the Mediterranean in the early years 
of our Nation or in our backyard in the Caribbean during the 
time of the Fleu Boustea, the French pirates, is an act or a 
series of acts that our government from its inception has not 
tolerated and will not tolerate.
    There are companies nonetheless that have not taken the 
appropriate measures that they can and should take to protect 
themselves. We know well oceans cover 80 percent of the globe 
surface and navies can't be everywhere. So we have to have 
responsible companies that will take charge of their own 
destiny, but we have to have our naval fleets and our Coast 
Guard authority present where there is high probability of 
piracy action. And you can help us by the testimony you have 
given, which is very well said.
    I stayed up last night and read it, a greater understanding 
of piracy, its impact, how it occurs, where it occurs, and what 
actions we can take preventively, preemptively, and in the 
course of commerce. We thank you very much for your testimony.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Chalk, good to see you again. You were in my office a 
few weeks back; so I am not going to rehash some of the things 
we talked over. But since then we have received more 
information on the MOU between the U.S. and Kenya and with 
regards to what does a dog do with the car once he catches it. 
Answering that question, what are your thoughts about the U.S.-
Kenyan MOU and what is going to be done with pirates who are 
captured, and have you made an assessment whether that is going 
to be enough of a deterrent effect?
    Mr. Chalk. Thank you for that question. I think the MOU 
that the United States has signed with Kenya is a positive 
development because one of the greatest problems was, as you 
said, what do you do with the pirates once you have caught 
them? In most cases, though, they were just handed back into 
Somalia, which was basically a get-out-of-jail card right 
there.
    The problem with the Kenyan judicial system if you are 
looking at the country as a whole is that there is rampant 
corruption and the judicial structure there has been the 
recipient of numerous influxes of assistance both from the 
United States and from the United Kingdom. And really in terms 
of its functioning at this point, although it is a positive 
development, I have my own doubts as to how efficient the court 
system will be and how clean it will be as well.
    So I think that there is still a lot to be worked out in 
terms of the actual prosecution of apprehended pirates and 
whether or not--I certainly do not see the Kenyan detention 
system as being a sufficient deterrent for Somali-based 
pirates, particularly given how much they are earning today and 
the fact that the MOU really only extends to the United States; 
so it doesn't affect other countries.
    Mr. Larsen. That is something probably worth exploring for 
us in the future.
    Mr. Noakes, is that a correct pronunciation?
    Mr. Noakes. Yes, sir.
    Mr. Larsen. You talked about the capacity of the existing 
military assets as well as the numbers. Let us not talk about 
whether or not there is enough naval assets, but you mentioned 
perhaps a capacity of the existing assets may not be used 
fully. That is what I gathered. You probably also heard my 
comments in the previous panel. It is sort of the how much, how 
long question when we clearly have other needs around the 
world. Some are more needy and some are less needy, but 
certainly other needs around the world. So can you try to touch 
on how much, how long and expand on the capacity of military 
assets and how they are being used?
    Mr. Noakes. Mr. Larsen, I don't quite understand what you 
are getting at. I think my colleagues here would agree we 
understand this can't go on forever, and I think all three of 
us alluded to the issue of capacity. But the concern I think 
that the industry has in general is that you have a commendable 
reaction from the international community, and I mentioned the 
issue of I think 14 nations, about to become 15 nations with 22 
ships. That is a sizable what I used to call command and 
control problem, and if that is maximized to its best, then I 
suspect in a very short period of time it could achieve a 
realistic amount of deterrence on the high seas, particularly 
if supported by the other aspects of the judicial additional 
weaknesses being resolved to a certain element, and that I 
think is the problem. But how long is a piece of string? And 
hence why I introduced my brief presentation over the issue of 
what is important in terms of globally strategic commerce and 
whose nations have those vital interests.
    But there is no doubt about it. The revenues of the Suez 
Canal have gone down in the last quarter of 2008. They are 
going down probably this quarter already and two major box 
lines have already opted not just because of the piracy 
problem, but that is one of the reasons, as have some of the 
Intertanko members, as has the biggest shipping line in the 
world Maersk.
    So we have to look at it from a holistic and big picture as 
well as the nitty-gritty small issues, but equally the industry 
is aware it has to help itself, too.
    Does that go some way to answer your question?
    Mr. Larsen. Yes, somewhat. I would like to do some follow-
up perhaps with you or Mr. Swift, Captain Davies, or your 
representatives around here, to chat a little more about this 
problem because I think we might try to go to the Seapower 
Subcommittee on the Armed Services Committee and chat with our 
Navy about this as well in a more complete manner.
    Mr. Cummings. Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. I will be very 
brief. Just one question for Captain Davies.
    Over the past couple of years there have been armed attacks 
at oil installations and tankers around the Nigerian Delta 
region. What, if any, measures are being taken to lessen the 
likelihood of future attacks which disrupt the flow of global 
energy supplies, and how cooperative have the Nigerian 
authorities been in helping to tackle this issue?
    Captain Davies. Thank you, Ms. Richardson. I think 
basically in terms of Nigeria it tends to be much more of an 
armed robbery/kidnap situation than a hijacking of vessels. 
What we have seen is that the Nigerian navy has tried to 
engage. In fact, they are fighting them in two places. They are 
fighting in the Delta. They are also trying to protect the oil 
fields offshore.
    Unfortunately, one of our members suffered an attack a 
couple years ago where seven members were taken ashore, and the 
psychological effects on the seafarers that were involved are 
extreme, and that is one of our big concerns in this. But 
certainly Nigeria is trying as hard as it can to protect the 
installations, but one of the big problems there is it is 
within Nigerian waters. So it tends to be a Nigerian problem 
rather than an international problem, as we are seeing in the 
Gulf of Aden.
    Mr. Cummings. I want to thank you all for being with us. 
Sorry we had to shorten this part a bit, but like I said, we 
will follow up with you.
    We are not going to resolve this situation overnight. One 
of the things you have made clear is this is a very, very, very 
complex problem and perhaps will require some complex 
solutions, but I do believe that we will be able to address it, 
and we will. Thank you very much.
    This hearing is now adjourned.
    [Whereupon, at 3:52 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 47259.017
    
    [GRAPHIC] [TIFF OMITTED] 47259.018
    
    [GRAPHIC] [TIFF OMITTED] 47259.019
    
    [GRAPHIC] [TIFF OMITTED] 47259.020
    
    [GRAPHIC] [TIFF OMITTED] 47259.021
    
    [GRAPHIC] [TIFF OMITTED] 47259.022
    
    [GRAPHIC] [TIFF OMITTED] 47259.023
    
    [GRAPHIC] [TIFF OMITTED] 47259.024
    
    [GRAPHIC] [TIFF OMITTED] 47259.025
    
    [GRAPHIC] [TIFF OMITTED] 47259.026
    
    [GRAPHIC] [TIFF OMITTED] 47259.027
    
    [GRAPHIC] [TIFF OMITTED] 47259.028
    
    [GRAPHIC] [TIFF OMITTED] 47259.029
    
    [GRAPHIC] [TIFF OMITTED] 47259.030
    
    [GRAPHIC] [TIFF OMITTED] 47259.031
    
    [GRAPHIC] [TIFF OMITTED] 47259.032
    
    [GRAPHIC] [TIFF OMITTED] 47259.033
    
    [GRAPHIC] [TIFF OMITTED] 47259.034
    
    [GRAPHIC] [TIFF OMITTED] 47259.035
    
    [GRAPHIC] [TIFF OMITTED] 47259.036
    
    [GRAPHIC] [TIFF OMITTED] 47259.037
    
    [GRAPHIC] [TIFF OMITTED] 47259.038
    
    [GRAPHIC] [TIFF OMITTED] 47259.039
    
    [GRAPHIC] [TIFF OMITTED] 47259.040
    
    [GRAPHIC] [TIFF OMITTED] 47259.041
    
    [GRAPHIC] [TIFF OMITTED] 47259.042
    
    [GRAPHIC] [TIFF OMITTED] 47259.043
    
    [GRAPHIC] [TIFF OMITTED] 47259.044
    
    [GRAPHIC] [TIFF OMITTED] 47259.045
    
    [GRAPHIC] [TIFF OMITTED] 47259.046
    
    [GRAPHIC] [TIFF OMITTED] 47259.047
    
    [GRAPHIC] [TIFF OMITTED] 47259.048
    
    [GRAPHIC] [TIFF OMITTED] 47259.049
    
    [GRAPHIC] [TIFF OMITTED] 47259.050
    
    [GRAPHIC] [TIFF OMITTED] 47259.051
    
    [GRAPHIC] [TIFF OMITTED] 47259.052
    
    [GRAPHIC] [TIFF OMITTED] 47259.053
    
    [GRAPHIC] [TIFF OMITTED] 47259.054
    
    [GRAPHIC] [TIFF OMITTED] 47259.055
    
    [GRAPHIC] [TIFF OMITTED] 47259.056
    
    [GRAPHIC] [TIFF OMITTED] 47259.057
    
    [GRAPHIC] [TIFF OMITTED] 47259.058
    
    [GRAPHIC] [TIFF OMITTED] 47259.059
    
    [GRAPHIC] [TIFF OMITTED] 47259.060
    
    [GRAPHIC] [TIFF OMITTED] 47259.061
    
    [GRAPHIC] [TIFF OMITTED] 47259.062
    
    [GRAPHIC] [TIFF OMITTED] 47259.063
    
    [GRAPHIC] [TIFF OMITTED] 47259.064
    
    [GRAPHIC] [TIFF OMITTED] 47259.065
    
    [GRAPHIC] [TIFF OMITTED] 47259.066
    
    [GRAPHIC] [TIFF OMITTED] 47259.067
    
    [GRAPHIC] [TIFF OMITTED] 47259.068
    
    [GRAPHIC] [TIFF OMITTED] 47259.069
    
    [GRAPHIC] [TIFF OMITTED] 47259.070
    
    [GRAPHIC] [TIFF OMITTED] 47259.071
    
    [GRAPHIC] [TIFF OMITTED] 47259.072
    
    [GRAPHIC] [TIFF OMITTED] 47259.073
    
    [GRAPHIC] [TIFF OMITTED] 47259.074
    
    [GRAPHIC] [TIFF OMITTED] 47259.075
    
    [GRAPHIC] [TIFF OMITTED] 47259.076
    
    [GRAPHIC] [TIFF OMITTED] 47259.077
    
    [GRAPHIC] [TIFF OMITTED] 47259.078
    
    [GRAPHIC] [TIFF OMITTED] 47259.079
    
    [GRAPHIC] [TIFF OMITTED] 47259.080
    
    [GRAPHIC] [TIFF OMITTED] 47259.081
    
    [GRAPHIC] [TIFF OMITTED] 47259.082
    
    [GRAPHIC] [TIFF OMITTED] 47259.083
    
    [GRAPHIC] [TIFF OMITTED] 47259.084
    
    [GRAPHIC] [TIFF OMITTED] 47259.085
    
    [GRAPHIC] [TIFF OMITTED] 47259.086
    
    [GRAPHIC] [TIFF OMITTED] 47259.087
    
    [GRAPHIC] [TIFF OMITTED] 47259.088
    
    [GRAPHIC] [TIFF OMITTED] 47259.089
    
    [GRAPHIC] [TIFF OMITTED] 47259.090
    
    [GRAPHIC] [TIFF OMITTED] 47259.091
    
    [GRAPHIC] [TIFF OMITTED] 47259.092
    
    [GRAPHIC] [TIFF OMITTED] 47259.093
    
    [GRAPHIC] [TIFF OMITTED] 47259.094
    
    [GRAPHIC] [TIFF OMITTED] 47259.095
    
    [GRAPHIC] [TIFF OMITTED] 47259.096
    
    [GRAPHIC] [TIFF OMITTED] 47259.097
    
    [GRAPHIC] [TIFF OMITTED] 47259.098
    
    [GRAPHIC] [TIFF OMITTED] 47259.099
    
    [GRAPHIC] [TIFF OMITTED] 47259.100
    
    [GRAPHIC] [TIFF OMITTED] 47259.101
    
    [GRAPHIC] [TIFF OMITTED] 47259.102
    
    [GRAPHIC] [TIFF OMITTED] 47259.103
    
    [GRAPHIC] [TIFF OMITTED] 47259.104
    
    [GRAPHIC] [TIFF OMITTED] 47259.105
    
    [GRAPHIC] [TIFF OMITTED] 47259.106
    
    [GRAPHIC] [TIFF OMITTED] 47259.107
    
    [GRAPHIC] [TIFF OMITTED] 47259.108
    
    [GRAPHIC] [TIFF OMITTED] 47259.109
    
    [GRAPHIC] [TIFF OMITTED] 47259.110
    
    [GRAPHIC] [TIFF OMITTED] 47259.111
    
    [GRAPHIC] [TIFF OMITTED] 47259.112
    
    [GRAPHIC] [TIFF OMITTED] 47259.113
    
    [GRAPHIC] [TIFF OMITTED] 47259.114
    
    [GRAPHIC] [TIFF OMITTED] 47259.115
    
    [GRAPHIC] [TIFF OMITTED] 47259.116
    
    [GRAPHIC] [TIFF OMITTED] 47259.117
    
    [GRAPHIC] [TIFF OMITTED] 47259.118
    
    [GRAPHIC] [TIFF OMITTED] 47259.119
    
    [GRAPHIC] [TIFF OMITTED] 47259.120
    
    [GRAPHIC] [TIFF OMITTED] 47259.121
    
    [GRAPHIC] [TIFF OMITTED] 47259.122
    
    [GRAPHIC] [TIFF OMITTED] 47259.123
    
    [GRAPHIC] [TIFF OMITTED] 47259.124
    
    [GRAPHIC] [TIFF OMITTED] 47259.125
    
    [GRAPHIC] [TIFF OMITTED] 47259.126
    
    [GRAPHIC] [TIFF OMITTED] 47259.127
    
    [GRAPHIC] [TIFF OMITTED] 47259.128
    
    [GRAPHIC] [TIFF OMITTED] 47259.129
    
    [GRAPHIC] [TIFF OMITTED] 47259.130
    
    [GRAPHIC] [TIFF OMITTED] 47259.131
    
    [GRAPHIC] [TIFF OMITTED] 47259.132
    
    [GRAPHIC] [TIFF OMITTED] 47259.133
    
    [GRAPHIC] [TIFF OMITTED] 47259.134
    
    [GRAPHIC] [TIFF OMITTED] 47259.135
    
    [GRAPHIC] [TIFF OMITTED] 47259.136
    
    [GRAPHIC] [TIFF OMITTED] 47259.137
    
    [GRAPHIC] [TIFF OMITTED] 47259.138
    
    [GRAPHIC] [TIFF OMITTED] 47259.139
    
    [GRAPHIC] [TIFF OMITTED] 47259.140
    
    [GRAPHIC] [TIFF OMITTED] 47259.141
    
    [GRAPHIC] [TIFF OMITTED] 47259.142
    
    [GRAPHIC] [TIFF OMITTED] 47259.143
    
    [GRAPHIC] [TIFF OMITTED] 47259.144
    
    [GRAPHIC] [TIFF OMITTED] 47259.145
    
    [GRAPHIC] [TIFF OMITTED] 47259.146
    
    [GRAPHIC] [TIFF OMITTED] 47259.147
    
    [GRAPHIC] [TIFF OMITTED] 47259.148
    
    [GRAPHIC] [TIFF OMITTED] 47259.149
    
    [GRAPHIC] [TIFF OMITTED] 47259.150
    
    [GRAPHIC] [TIFF OMITTED] 47259.151
    
    [GRAPHIC] [TIFF OMITTED] 47259.152
    
                                    

</pre></body></html>
